HHS/OIG, Audit -"Review of Pension Costs Claimed for Medicare Reimbursement by
Blue Cross Blue Shield of Utah for Fiscal Years 1987 Through 1997,"(A-07-06-00199)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Pension Costs Claimed for Medicare
Reimbursement by Blue Cross Blue Shield of Utah for Fiscal Years 1987 Through 1997," (A-07-06-00199)
April 11, 2006
Complete
Text of Report is available in PDF format (318 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review was to determine the allowability of pension costs claimed for
Medicare reimbursement for fiscal years (FY) 1987 through 1997.  We found that Utah
did not claim all pension costs that were allowable for Medicare reimbursement for FYs 1987
through 1997 because it did not claim pension costs in accordance with its Medicare contracts.  Therefore,
Utah underclaimed $756,509 of allowable pension costs.   We recommended that Utah
revise its Final Administrative Cost Proposals (FACP) to claim allowable CAS pension costs
of $756,509 for FYs 1987 through 1997.  Utah concurred with our recommendation.